App. 1
FRED LOHR AND JOLENE K. FOUSE, Appellants
v.
SARATOGA PARTNERS, L.P. AND HUNTINGDON
COUNTY TAX CLAIM BUREAU, Appellees
No. 67 MAP 2019
Supreme Court of Pennsylvania
October 1, 2020
ARGUED: May 21, 2020
Appeal from the Order of the Commonwealth
Court dated March 7, 2019 at No. 128 CD 2018 Afﬁrming the Order of the Huntingdon County Court of Common Pleas, Civil Division, dated October 23, 2017 at
No. CP-31-CV-1701-2016.
SAYLOR, C.J., BAER, TODD,
DOUGHERTY, WECHT, MUNDY, JJ.

DONOHUE,

OPINION
BAER JUSTICE.
We granted discretionary review to consider
whether the availability of a taxpayer remedy under
the Municipal Claims and Tax Liens Act (“MCTLA”),
53 P.S. §§ 7101-7505, but not the Real Estate Tax
Sale Law (“RETSL”), 72 P.S. §§ 5860.101-5860.803,
violates the equal protection provisions of the United
States and Pennsylvania Constitutions. Relevantly,
and absent exceptions described infra, the MCTLA
permits delinquent taxpayers in the ﬁrst and second
class counties of Philadelphia and Allegheny to redeem
property sold at an upset tax sale by paying the

App. 2
delinquent taxes and other costs within nine months
of the sale, while the RETSL, which governs upset tax
sales in second class A through eighth class counties,
explicitly excludes post-sale redemption.[1] After review, we conclude that the General Assembly’s decision
to omit the right of post-sale redemption from the
RETSL is constitutional because it is rationally related
to a legitimate state interest as discussed below. Accordingly, we afﬁrm the order of the Commonwealth
Court upholding the denial of the delinquent taxpayers’ petition to redeem in this case involving a tax sale
governed by the RETSL.
Appellants, Fred L. and Jolene K. Fouse (“the
Fouses”) owned two parcels of land in Lincoln Township,
Huntingdon County, identified by Tax Identification
Numbers 24-08-02 and 24-08-01.1 (“the Property”),
which they utilized as their primary residence from
the time they acquired the two parcels in 1976 and
1987, respectively. Eventually, the Fouses fell behind
in the payment of their taxes on the Property, owing a
total of $16, 747.50 for 2014 and 2015, according to the
Huntingdon County Tax Claim Bureau (“Tax Claim
Bureau”).[2] As mandated by the RETSL, the Tax Claim
Bureau scheduled an upset tax sale for September
1

An upset tax sale, generally, is the sale of property to recoup unpaid taxes at which all bids must equal or exceed a predetermined price sufﬁcient to pay speciﬁed taxes, claims, and costs.
See, e.g., 72 P.S. § 5860.605 (RETSL provision entitled “Upset sale
price”).
2
The properties had a total assessed value of $152, 800, according to the Tax Claims Bureau. Brief in Opposition to Petition
to Redeem at 2 (unnumbered).

App. 3
2016 and provided the requisite notice and publication.
At the tax sale, appellees, Saratoga Partners, L.P. (“Saratoga”), submitted the highest bid of $27, 795.45.
Three months later, in December 2016, the Fouses
ﬁled a “petition to redeem property sold at tax sale”
(“Petition to Redeem”), even though Huntington County,
as a sixth class county, is governed by the RETSL,
which, as set forth infra, prohibits post-sale redemption.[3] Instead, the Fouses asserted, inter alia, a right
to redeem under Section 7293 of the MCTLA by paying
the amount paid by Saratoga at the tax sale.[4] The

3

Before this Court, the Fouses only assert their right to redeem the Property. Accordingly, we will not discuss the other issues raised in the Petition to Redeem.
4
Section 7293 of the MCTLA provides in relevant part:
§7293. Redemption
(a) The owner of any property sold under a tax or municipal claim, or his assignees, or any party whose lien
or estate has been discharged thereby, may, except as
provided in subsection (c) of this section, redeem the
same at any time within nine months from the date of
the acknowledgment of the sheriff ’s deed therefor,
upon payment of the amount bid at such sale; the cost
of drawing, acknowledging, and recording the sheriffs
deed; the amount of all taxes and municipal claims,
whether not entered as liens, if actually paid; the principal and interest of estates and encumbrances, not discharged by the sale and actually paid; the insurance
upon the property, and other charges and necessary expenses of the property, actually paid, less rents or other
income therefrom, and a sum equal to interest at the
rate of ten per centum per annum thereon, from the
time of each of such payments . . . [Addressing rights of
lienholders to redeem.]

App. 4
Fouses asserted that they deposited funds in escrow to
cover the relevant taxes and costs. The trial court issued a rule to show cause why the relief should not be
granted, ordered brieﬁng, and scheduled a hearing on
the matter.
In their brief in support of the Petition to Redeem,
the Fouses acknowledged that the MCTLA applies to
ﬁrst and second class counties, which include Philadelphia and Allegheny, while the RETSL generally governs all other counties, including Huntingdon.[5] The
Fouses emphasized that the MCTLA provides delinquent property owners a post-sale right of redemption
if delinquent taxes and costs are paid within nine
(b) Any person entitled to redeem may present his petition to the proper court, setting forth the facts, and
his readiness to pay the redemption money; whereupon
the court shall grant a rule to show cause why the purchaser should not reconvey to him the premises sold;
and if, upon hearing, the court shall be satisﬁed of the
facts, it shall make the rule absolute, and upon payment being made or tendered, shall enforce it by attachment.
(c) [Addressing vacant properties] 53 P.S. § 7293.
5
Within Allegheny County, the City of Pittsburgh is separately governed by the Second Class City Treasurer’s Sale and
Collection Act, 53 P.S. §§ 27101-27605. It limits taxpayer’s ability
to redeem to “[w]ithin 90 days after the date of the treasurer’s
sale.” 53 P.S. § 27304.
Moreover, the MCTLA allows tax claims bureaus of second
class A to eighth class counties to adopt the procedures and
remedies of the MCTLA, including the redemption provision,
in addition to those provided in the RETSL, 53 P.S. § 7193.5.
Huntingdon County apparently has not adopted these procedures.

App. 5
months of the upset sale, while the RETSL explicitly
instructs that “[t]here shall be no redemption of
any property after the actual sale thereof.” 72 P.S.
§ 5860.501(c).
The Fouses argued that the absence of a right of
redemption provision in the RETSL, in contrast to
the existence of the right in the MCTLA, results in
citizens of second class A through eighth class counties being treated less favorably than citizens of ﬁrst
and second class counties, in violation of the equal protection provisions of the United States and Pennsylvania Constitutions.[6] The Fouses additionally asserted
that property rights are fundamental rights subject to
strict scrutiny, which requires any statutory classiﬁcation to be narrowly tailored to support a compelling
government interest.
In addressing the state interest prong, the Fouses
recognized that this Court has held that the purpose
of tax sale laws is “not to strip the taxpayer of his
property but to ensure the collection of taxes.” Brief in
Support of Petition to Redeem at 9 (unnumbered)
(quoting Tracy v. County of Chester, Tax Claim Bureau,
489 A.2d 1334, 1339 (Pa. 1985)). The Fouses argued
that the state interest in collecting taxes is served by
the redemption provision because it allows for property owners to pay the taxes and all costs incurred.
They maintained that the absence of the redemption
6

The Equal Protection Clause of the United States Constitution’s Fourteenth Amendment and the relevant provisions of
the Pennsylvania Constitution are set forth infra at 17-18 n.16.

App. 6
provision does not advance the purpose of tax collection but instead divests the property owner of their
rights, such that it is not narrowly tailored to tax collection, as required for strict scrutiny.[7]
The Tax Claim Bureau responded, emphasizing
that both the MCTLA and the RETSL contain provisions that allow delinquent taxpayers to remedy an upset tax sale. The MCTLA, as stated, allows property
owners to redeem the property within nine months of
a tax sale, upon payment of the taxes and costs. The
RETSL, however, provides a pre-sale remedy by which
property owners can stay the sale of their property by
paying twenty-ﬁve percent of the delinquent taxes
prior to the date set for the upset sale and agreeing to
an installment plan to pay the remaining taxes within
the next twelve months. Brief in Opposition to Petition
to Redeem at 4 (unnumbered) (referencing 72 P.S.
§ 5860.603 of the RETSL).[8] Thus, they emphasized
7

The Fouses also originally asserted their claims under the
Uniformity Clause of Article VIII, Section 1, but it appears that
they abandoned that claim before this Court, presumably because
Article III, Section 20 of the Pennsylvania Constitution expressly
allows the legislature to treat counties differently based on population, see infra at 7 n.9.
They additionally raised a substantive due process claim in
their Petition to Redeem. While they abandoned that argument
by failing to raise it in their Pa.R.A.P. 1925(a) Statement of Matters
Complained of on Appeal, many of the arguments in support of that
proposition overlap with their ongoing equal protection claims.
Accordingly, they have been included herein where relevant.
8
Section 5860.603 of the RETSL provides as follows:
§ 5860.603. Removal from sale; agreements to stay sale
Any owner or lien creditor of the owner may, at the option of the bureau, prior to the actual sale, (1) cause the

App. 7

property to be removed from the sale by payment in full
of taxes which have become absolute and of all charges
and interest due on these taxes to the time of payment,
or (2) enter into an agreement, in writing, with the bureau to stay the sale of the property upon the payment
of twenty-ﬁve per centum (25%) of the amount due
on all tax claims and tax judgments ﬁled or entered
against such property and the interest and costs on the
taxes returned to date, as provided by this act, and
agreeing therein to pay the balance of said claims and
judgments and the interest and costs thereon in not
more than three (3) instalments all within one (1) year
of the date of said agreement, the agreement to specify
the dates on or before which each instalment shall be
paid, and the amount of each instalment. So long as
said agreement is being fully complied with by the taxpayer, the sale of the property covered by the agreement shall be stayed. But in case of default in such
agreement by the owner or lien creditor, the bureau,
after written notice of such default given by United
States mail, postage prepaid, to the owner or lien creditor at the address stated in the agreement, shall apply
all payments made against the oldest delinquent taxes
and costs, then against the more recent. If sufﬁcient
payment has been made to discharge all the taxes and
claims which would have caused the property to be put
up for sale, the property may not be sold. If sufﬁcient
payment has not been received to discharge these taxes
and claims, the bureau shall proceed with the sale of
such property in the manner herein provided either at
the next scheduled upset sale or at a special upset sale,
either of which is to be held at least ninety (90) days
after such default. If a party to an instalment agreement defaults on the agreement, the bureau shall not
enter into a new instalment agreement with that person within three (3) years of the default.
72 P.S. § 5860.603.

App. 8
that both acts allow for taxpayers to regain their property by paying the delinquent taxes within a year of
the scheduled tax sale.
Saratoga additionally ﬁled a brief in the trial court
in support of denying the Fouses’ Petition to Redeem.
It rejected the Fouses claim to a right of redemption,
as it viewed redemption to be merely “an equity” provided by the statute. Saratoga Brief in Opposition to
Petition to Redeem at 6-7 n.3. Thus, it argued that, in
the absence of the derogation of a fundamental right,
rational basis, rather than strict scrutiny, should be
applied to the Fouses’ equal protection challenge.
Saratoga emphasized that the Pennsylvania Constitution explicitly allows for classiﬁcations based on
county size in Article III, Section 20.[9] Saratoga highlighted that this Court has found variations in taxation between territorial divisions, such as between
Pittsburgh and Philadelphia, to be constitutional under the Uniformity Clause, so long as there is uniformity within the territorial division, citing Moore v.
School Dist. of Pittsburgh, 13 A.2d 29, 32 (Pa. 1940).

9

Section 20 provides in full as follows:
The Legislature shall have power to classify counties,
cities, boroughs, school districts, and townships according to population, and all laws passed relating to each
class, and all laws passed relating to, and regulating
procedure and proceedings in court with reference to,
any class, shall be deemed general legislation within
the meaning of this Constitution.
Pa. Const. art. III, § 20.

App. 9
In October 2017, the trial court denied the Petition
to Redeem. After the Fouses ﬁled a notice of appeal, the
court authored an opinion in support of its order.[10] The
trial court recognized that the distinction between the
MCTLA and the RETSL resulted in property owners
in some areas, including Philadelphia, having a right
to redeem their properties within nine months of an
upset tax sale, while those in less populated counties,
such as the Fouses in Huntingdon County, do not have
that opportunity. The court, however, concluded that
the distinction withstood constitutional scrutiny.
In so doing, the court applied the rational basis
test, which requires that the statute promote a legitimate state interest and that the classiﬁcation be “reasonably related to accomplishing that articulated state
interest.” Tr. Ct. Op. at 5 (citing Curtis v. Kline, 666
A.2d 265, 269 (Pa. 1995)). The trial court looked ﬁrst to
the state’s interest in enacting the RETSL without a
redemption provision. It recognized the “dominant purposes of the [RETSL] were to provide speedier and
more efﬁcient procedures for enforcing tax liens and to
improve the quality of titles obtained at a tax sale,”
which, in turn, promoted the state’s interest in tax
10

The Fouses originally ﬁled their appeal in Superior Court,
and the case was later transferred to the Commonwealth Court
in January 2018.
In the Fouses’ Pa.R.A.P. 1925(b) Statement of Matters Complained of on Appeal, they asserted the following single issue:
“The failure of the Real Estate Tax Law of 1947 to provide taxpayers with a redemption period violates both the Equal Protection Clause of the United State Constitution and Article III of the
Constitution of the Commonwealth of Pennsylvania.”

App. 10
collection. Tr. Ct. Op. at 5 (quoting Povlow v. Brown,
315 A.2d 375, 377 (Pa. Cmwlth. 1974)).
Agreeing with the court in Povlow, the trial court
observed that “redemption would have the effect of
making titles less attractive” and likely result in lower
bids, which might be insufﬁcient to satisfy the taxes
due. Id. at 6 (quoting Povlow, 315 A.2d at 377 n.4) (alterations in original removed). The court additionally
opined that the classiﬁcation of taxpayers subject to
the MCTLA rather than the RETSL was “addressed
by Article III, Section 20, of the Pennsylvania Constitution[,] which specifically permits classification
by population.” Id. Given the presumption in favor of
constitutionality, the trial court concluded that the
lack of a redemption provision in the RETSL did not
violate taxpayers’ right to equal protection under the
federal or state constitutions.
On appeal to the Commonwealth Court, the
Fouses asserted that the trial court erred in applying
rational basis scrutiny to their constitutional challenge. In a published decision of a divided three-judge
panel, the Commonwealth Court afﬁrmed the trial
court’s order denying the Fouses’ Petition to Redeem.
Fouse v. Saratoga Partners, L.P., 204 A.3d 1028 (Pa.
Cmwlth. 2019). The court viewed the Fouses’ claim as
focused on their equal protection rights secured by the
Pennsylvania Constitution, n specifically Article I,
Sections 1 and 26,[11] rather than the federal Equal

11

Section 1 and Section 26 are set forth infra 17-18 n.16.

App. 11
Protection Clause. It opined, however, that the provisions were coextensive.[12] Id. at 1033 n.9.
The Commonwealth Court ﬁrst considered the applicable level of constitutional scrutiny. The court
viewed “the Fouses’ asserted right to post-tax-sale redemption” as subsumed within the broader “right to
‘freely hold and dispose of ’ one’s property,” which the
court previously deemed subject to rational basis review because it did not involve a fundamental right.
Fouse, 204 A.3d at 1036 (quoting McSwain v. Commonwealth, 520 A.2d 527, 530 (Pa Cmwlth. 1987)). The
court also reasoned that rational basis review was appropriate because the applicability of the MCTLA rather than the RETSL derived from the population size
of the county. It emphasized that this criteria “implicate[d] neither a suspect class nor a sensitive classiﬁcation,” which would have triggered a higher level of
scrutiny. Id. at 1036 n.11 (citing Small v. Horn, 722
A.2d 664, 672 n.14 & 15 (Pa. 1998)).
As did the trial court, the Commonwealth Court
looked to this Court’s decision in Curtis for application
of the rational basis test to an equal protection challenge. It recognized that the rational basis test generally requires courts to “determine whether the
challenged statute seeks to promote any legitimate
state interest or public value” and then to “determine
whether the classiﬁcation adopted in the legislation is
12

The Commonwealth Court indicated that the Tax Claim
Bureau failed to ﬁle a brief and was precluded from participating
in the appeal. Id. at 1033 n.8.

App. 12
reasonably related to accomplishing that articulated
state interest or interests.” Id. at 1036 (quoting Curtis,
666 A.2d at 269). It recognized that “[t]he prohibition
against treating people differently under the law does
not preclude the Commonwealth from resorting to legislative classiﬁcations, provided that those classiﬁcations are reasonable rather than arbitrary” and “rest
upon some ground of difference which justiﬁes the classiﬁcation and has a fair and substantial relationship
to the object of the legislation.” Id. at 1037 (quoting
Curtis, 666 A.2d at 267-68 (citations omitted)). The
court further observed that “[a] classiﬁcation, though
discriminatory, is not arbitrary or in violation of the
equal protection clause if any state of facts reasonably
can be conceived to sustain that classiﬁcation.” Id.
(quoting Curtis, 666 A.2d at 268 (citations omitted)). It
opined that the rationale does not need to be set forth
in the legislation or asserted by the Commonwealth,
but instead recognized that courts may hypothesize
justiﬁcations supporting the classiﬁcation. Id. at 10371038 (citing Pa. Liquor Control Bd., 485 A.2d 732, 735
(Pa. 1984); Curtis, 666 A.2d at 268)).
Applying these principles, the Commonwealth
Court ﬁrst looked to whether the legislature had a legitimate state interest in excluding redemption from
the RETSL. Echoing the trial court’s reliance on Povlow, the court concluded that the RETSL promoted the
legitimate government interest in “speedier and more
efﬁcient procedures for enforcing tax liens and [improving] the quality of the title” sold at tax sales. Id.

App. 13
(quoting Pacella v. Washington Cty. Tax Claim Bureau,
10 A.3d 422, 428 (Pa. Cmwlth. 2010)).
The Commonwealth Court next considered
whether the legislative classiﬁcation between more
populated counties, with the right of redemption under
the MCTLA, and less populated counties, without the
remedy under the RETSL, was rationally related to the
legitimate legislative purpose of a more efﬁcient tax
collection process. The court found the test satisﬁed
based upon the following analysis, which is central to
the instant appeal:
[W]e posit that Pennsylvania’s ﬁrst and second class counties have larger pools of prospective buyers at tax sales. These larger
pools of prospective buyers make it more
likely that a property will be sold at a tax sale.
Under these circumstances, the need for
owner protection is greater, and that need is
met by the equity of redemption in the more
populous counties. Further, as these counties
have a higher population and, therefore, a
larger taxable base from which to derive revenue, the General Assembly could have reasoned that these counties can afford a less
efﬁcient process for collecting delinquent
taxes by providing a post-tax-sale right of redemption
Id. at 1038. Given that the court could “conceive of
plausible reasons for the statute, and the legislative
classiﬁcation does not rest on grounds wholly irrelevant to the achievement of the state’s purpose,” it concluded “that RETSL’s lack of a post-tax-sale right of

App. 14
redemption provision satisﬁes rational basis review.”
Id. Accordingly, the court afﬁrmed the trial court’s order denying the Fouses’ Petition to Redeem.
Judge McCullough dissented. Emphasizing the
similarities between the two statutes, the dissent
opined that “there are no signiﬁcant substantive or
procedural differences between the RETSL and the
MCTLA, except for the automatic right to redemption
in the MCTLA.” Id. at 1040 (McCullough, J., dissenting). With the asserted similarity as backdrop, the dissent rejected the rationale conceived by the majority to
support the legislative classiﬁcation, which was based
on the distinction between large and small counties.
The dissent opined that it found this rationale unpersuasive because Section 7193.5 of the MCTLA provided tax claims bureaus in the counties with smaller
populations with the ability to adopt aspects of the
MCTLA. Thus, the dissent argued, the MCTLA allowed citizens of some less populated counties to utilize the redemption provisions, despite the size of their
populations. Id. (citing 53 P.S. § 7193.5. (“The tax claim
bureaus of the several counties may adopt and use
the procedures set forth in this act in addition to the
procedures set forth in the [RETSL].”)). The dissent
opined that there was “no apparent basis relating specifically to differences in population that would rationalize excluding the right of redemption from the
RETSL.” Id. at 1040-41.
The dissent “view[ed] the right of redemption as a
personal, individual right that provides a homeowner
with an extra or ﬁnal chance to reclaim property

App. 15
following” a tax sale. Id. at 1041. It continued, opining
that regardless of the population of the county in which
“a homeowner resides, that homeowner shares the
same interest in redemption as any other homeowner
located anywhere else in the Commonwealth.” Id. Accordingly, the dissent concluded that classiﬁcation
violated the equal protection provisions of the federal
and Pennsylvania Constitutions. The dissent would instead “enjoin enforcement of the RETSL and enter an
order requiring all the counties in the Commonwealth
to utilize the MCTLA (which they are already authorized to do) as the sole procedure through which to conduct tax sales,” thus ensuring that all taxpayers have
the equal option to redeem. Id. at 1042 (footnote omitted).
The Fouses sought allowance of appeal, which
this Court granted, to address the following issue:
“Whether the lack of a right to redemption under the
Real Estate Tax Sale Law (RETSL) 72 P.S. § 5860.101
et seq., violates the Equal Protection Clause of the
United States Constitution and Article III of the Pennsylvania Constitution.” [Fouse] v. Saratoga Partners,
L.P., 217 A.3d 794 (Pa. 2019). In this Court, the Fouses
reassert the arguments they raised in the lower tribunals.[13]

13

Although the Fouses’ question asserts a right of equal protection under Article III of the Pennsylvania Constitution, their
argument relies primarily upon the equal protection provision of
Article I, Section 1 of the Commonwealth’s charter, as it has
throughout the course of this litigation.

App. 16
They frame the right involved as the “right to acquire, possess, and protect property,” which they emphasize is an “inherent and indefeasible right” under
Article I, Section 1 of the Pennsylvania Constitution.
Fouses’ Brief at 9-10 (quoting Pa. Const. Art. I, § 1).
They recognize that, while this Court has not speciﬁcally identiﬁed the right to acquire, possess, and protect property as a fundamental right, we have deemed
other rights in Article 1, Section 1 to be fundamental,
including the right to reputation. Id. at 10.
Arguing that strict scrutiny should be applied to
this fundamental right, they contend that the differentiation between taxpayers who have access to a remedy
of redemption under the MCTLA and those who do not
under the RETSL must be narrowly tailored to support
a compelling government interest. They assert that
“[t]he classiﬁcation of citizens based upon the population of the municipality in which they live does not
serve a compelling government interest.” Id. at 7.
Assuming arguendo that this Court deems the
right subject to rational basis review, the Fouses alternatively argue that the classiﬁcation fails to meet that
lower standard as well. They assert that the redemption provision protects the government interest in the
collection of taxes. The Fouses contend that “neither
the government nor the land speculator are deprived
of anything” through the use of a redemption remedy
because the “government’s tax interest is paid and the
speculator’s bid is returned, along with any actual
costs.” Id. at 14. They acknowledge, however, that the

App. 17
speculator “must wait to see if his speculation will bear
fruit” during the redemption period. Id.
In contrast, they argue that the lack of a redemption remedy merely serves “to divest owners of their
property, even when the owner comes forth with all
monies owed, in hand.” Id. at 12. They emphasize that
this Court in Tracey, 489 A.2d at 1339, held that the
purpose of tax sale laws is “not to strip the taxpayer of
his property but to ensure the collection of taxes.” Id.
at 14.
The Fouses reject the trial court and the Commonwealth Court’s justiﬁcations for the classiﬁcations of
citizens subject to the MCTLA and the RETSL based
upon the population size of their counties. In this regard, the Fouses relied upon the reasoning of the dissent in the Commonwealth Court, which emphasized
that the tax bureaus in the less populous counties have
the ability to opt into the procedures of the MCTLA, 53
P.S. § 7193.5, and, accordingly, “there is no apparent
basis relating speciﬁcally to differences in population
that would rationalize excluding the right of redemption from the RETSL.” Fouses’ Brief at 14 (quoting
Fouse, 204 A.3d at 1040-41 (McCullough, J., dissenting)).[14]
Saratoga responds by arguing that the relevant
right is not the right to acquire, possess, or protect
property but rather a claimed right to redeem property,
which it contends is not a right encompassed by Article
14

The Community Justice Project submits an amicus curiae
brief in support of the Fouses.

App. 18
1, Section 1. Saratoga avers that this Court has previously addressed the lack of a right to redeem under the
RETSL in Bernitsky v. Schuylkill County, 112 A.2d
120, 130 (Pa. 1955), discussed infra, which addressed
the elimination of a redemption provision when the
RETSL was enacted in 1947. The Court in Bernitsky
opined that the redemption right included in a prior
statute could be eliminated by the Legislature through
the RETSL as it was not a vested right.
Saratoga argues that the Legislature’s decision to
include post-sale redemption in the MCTLA but not
the RETSL should be subject to the rational basis test,
requiring the distinction to be rationally related to a
legitimate state interest. It emphasizes that this Court
has long found the collection of taxes to be a legitimate
state interest given that “taxes are the life-blood of
government, and their prompt and certain availability
an imperious need.” Saratoga’s Brief at 14-15 (quoting
Cedarbrook Realty Inc. v. Nahill, 399 A.2d 374, 378 (Pa.
1979)).
Saratoga next considers whether the distinction
between the MCTLA and RETSL regarding the right
of redemption is rationally related to the state’s
interest in collecting delinquent taxes. In contrast to
the Commonwealth Court dissent’s conclusion that the
redemption provision was the primary difference between the MCTLA and the RETSL, Saratoga highlights a number of distinctions between the statutes,
which provide context for the inclusion or exclusion of
the redemption provision. Speciﬁcally, it highlights
that the RETSL provides greater pre-sale protections

App. 19
through stricter and more extensive notice requirements, including speciﬁc procedures to locate the property owner and others, not applicable to the MCTLA.[15]
Saratoga’s Brief at 17 (comparing Pa.R.C.P. 3129.2(b)
(governing the posting of notice via handbills applicable to the MCTLA) with 72 P.S. § 5860.102 (deﬁning
“posting” by setting forth detailed criteria to provide
conspicuous notice to both the owner and the public
for sales pursuant to the RETSL)); id. at 18 (comparing Pa.R.C.P. 3129.1 and 3129.2(c) (addressing service of written notice applicable to the MCTLA) with
the enhanced provisions of the RETSL, under 72 P.S.
§ 5860.607a(a) (requiring “additional notiﬁcation efforts” to locate and provide notice to various persons or
entities “likely to be signiﬁcantly affected” by the tax
sale, including documentation of such efforts)). Saratoga also highlights more exacting requirements for
service on the owner under the RETSL. Id. at 19-20
(contrasting service of notice upon the owner pursuant
to Pa.R.C.P. 402(a) and 403 (applicable to the MCTLA
as incorporated by Pa.R.C.P. 3129.2(c)(1)(i)) with 72

15

Saratoga observes that the Pennsylvania Rules of Civil Procedure govern the relevant notice requirements for the MCTLA.
Speciﬁcally, Pa.R.C.P. 3190 instructs that “[a] judgment in rem in
an action or proceeding upon a . . . municipal claim [or] tax claim
. . . shall be enforced against the real property subject to the lien
[or] claim . . . in accordance with Rules 3180 to 3183 governing
the enforcement of judgments in mortgage foreclosure.” Pa.R.C.P.
3181(a)(6), in turn, instructs that notice should be given in accordance with Pa.R.C.P. 3129.1 through 3129.3. The RETSL is
speciﬁcally exempted from this mandate, such that the RETSL’s
notice procedures are still applicable. Pa.R.C.P. 3191(a)(2)(viii).

App. 20
P.S. § 5860.601(a)(3) applicable to the RETSL, providing speciﬁc notice for owner-occupied properties).
Critically, Saratoga emphasizes the differences between the RETSL and the MCTLA relating to an
owner’s ability to retain or regain title to her property.
While the MCTLA provides a post-sale remedy of
redemption, the RETSL provides pre-sale protection
by allowing an owner to stay the tax sale by paying
twenty-ﬁve percent of the delinquent taxes prior to the
scheduled sale and agreeing to an installment plan to
pay the remainder within one year, pursuant to 72 P.S.
§ 5860.603, set forth supra at 6 n.8.
In light of these differences, Saratoga surmises
that it is “reasonable to hypothesize that the inclusion of a redemption provision in MCTLA – and the
omission of one from RETSL – was crafted to account
for the fact that it is much more likely that the owner
of a property will appear after an MCTLA upset sale
having not had notice of the sale or an opportunity
to gather the necessary funds to satisfy the tax lien
and remove the property from sale.” Saratoga’s Brief at
22. Moreover, it suggests that RETSL’s pre-sale ability
to stay the tax sale and the MCTLA’s post-sale right
of redemption serve similar purposes in providing
“breathing room” to the property owner. Id. at 23.
Saratoga argues that there are also differences
regarding the finality of the tax sales and the delivery
of the deed to the purchaser. Under the MCTLA, the
deed is delivered upon the sale, and the prior owner
cannot challenge the judgement underlying the sale.

App. 21
Saratoga’s Brief at 23-24 (citing 53 P.S. §§ 7293, 7281).
In such cases, Saratoga contends, the redemption provision “serves as an effective means to reverse” an upset tax sale. Id. at 24. In contrast, under the RETSL,
the deed is issued only after a court conﬁrms the sale,
prior to which the owner can challenge aspects of the
sale. Id. at 23 (citing 72 P.S. § 5860.608); see also 72
P.S. § 5860.607(d).
In summary, Saratoga asserts that “the inclusion
of enhanced procedures to guarantee notice, an opportunity to stay the sale by making installment payments on the tax debt, and the right to attack the
procedural integrity of the sale before a sheriffs deed
is issued” provides a rational basis for the Legislature
to remove what Saratoga argues would result in “a
largely redundant means for an owner to prevent or
undo the effect of an upset sale.” Saratoga Brief at 26.
In addressing the Fouses’ constitutional challenge,
we initially recognize that the Fouses “carr[y] a heavy
burden” challenging the constitutional validity of the
RETSL’s prohibition against post-sale redemption.
Sands Bethworks Gaming, LLC v. Pennsylvania Dep’t
of Revenue, 207 A.3d 315, 319 (Pa. 2019). We reiterate
that lap duly enacted legislation enjoys a strong presumption of validity, and will only be declared void if it
violates the Constitution clearly, palpably and plainly.”
Id. (internal citations and quotation marks omitted).
The Fouses challenge the RETSL’s redemption
prohibition under the equal protection provisions of

App. 22
the federal and state constitutions.[16] In In its most
simplistic formulation, equal protection “demands that
uniform treatment be given to similarly situated parties.” Zauﬂik v. Pennsbury School Dist., 104 A.3d 1096,
1117 (Pa. 2014) (citation omitted). Our constitutions
have long been interpreted, nevertheless, to permit the
16

The Fouses, however, do not argue that the equal protection analysis differs under the two charters. Accordingly, we will
not address any potential distinctions other than to acknowledge
that this Court has previously recognized the difference in language utilized in the charters but proceeded to apply the same
analytical tests to both texts. See Zauﬂik v. Pennsbuty School
Dist., 104 A.3d 1096, 1117 n.10 (Pa. 2014).
In relevant part, the Fourteenth Amendment to the United
States Constitution provides,
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
U.S. Const., amend. XIV, § 1. Pennsylvania provides similar protection through Article I, Section 1, addressing, inter alia, equal
rights, and Section 26, providing protection against discrimination:
All men are born equally free and independent, and
have certain inherent and indefeasible rights, among
which are those of enjoying and defending life and liberty, of acquiring, possessing and protecting property
and reputation, and of pursuing their own happiness.
Pa Const. Art. I, § 1.
Neither the Commonwealth nor any political subdivision thereof shall deny to any person the enjoyment of
any civil right, nor discriminate against any person in
the exercise of any civil right.
Id. § 26.

App. 23
legislative branches to draw classiﬁcations so long as
they are properly justiﬁed. Id. The required justiﬁcation depends “upon which of three types a classiﬁcation
belongs to, what the governmental interest is in promulgating the classiﬁcation, and the relationship of that
interest to the classiﬁcation itself.” Id. at 1117-18. Fundamental rights and suspect classiﬁcations trigger
strict scrutiny, whereas important rights and sensitive
classifications require intermediate scrutiny. Id. at
1118. All other legislative classiﬁcations are subject to
rational basis review. Id.
The Fouses initially argue for the application of
strict scrutiny claiming that the lack of a redemption
provision violated their property rights, which they
view to be fundamental rights. They rely in support on
Pennsylvania’s inclusion of the right “of acquiring, possessing and protecting property” as an “inherent and
indefeasible right” in Article I, Section 1, and they assert that this encompasses their asserted “right to reclaim their property upon payment of all costs.” Fouses’
Brief at 9.
After consideration, we conclude that the asserted
right is not a fundamental constitutional right but, instead, a statutory remedy, provided as part of a legislative tax collection process. In so doing, we emphasize
that the legislative branch has broad discretion in regard to tax collection, based in part on the “importance
of the tax collection process to the perpetuation and
continuing vitality of government.” Cedarbrook Realty,
Inc., 399 A.2d at 377. Indeed, we have opined that statutes “authorizing the assessment of municipal taxes,

App. 24
the creation of liens therefor, the sale of lands to satisfy
the liens, and the time of redemption given to owners,
constitute together [a] system of remedies for enforcing
the taxing power – [of ] which there is no clearer power
in the constitution.” Bernitsky, 112 A.2d at 122 (quoting Appeal of Gault, 33 Pa. 94, 100 (Pa. 1859)). This
Court has additionally opined that the right of redemption within a tax collection statute is not a vested right
but rather merely a “right subject to the control of the
Legislature.”[17] Id. at 123. In the shadow of the clear
legislative authority to structure the tax collection process, the Fouses provide no textual or historical argument supporting a constitutionally-enshrined right to
redeem their property by paying delinquent taxes and
costs after an upset sale. Absent the identiﬁcation of
a constitutionally-protected right triggering an increased level of scrutiny, we conclude that rational basis review applies to the equal protection challenge
raised herein.
As we have often recounted, “rational-basis review
in equal protection analysis is not a license for courts
17

In Bernitsky, this Court addressed a claim by property
owners who had purchased a tract of land only to later discover
that it had been subject to a tax sale years prior. The property
owners attempted to assert a vested right to utilize a redemption
provision that existed under the tax collection statute in effect at
the time of the tax sale, despite the subsequent enactment of the
RETSL, which prohibited redemption. They claimed that it would
violate the constitution to divest them of their “right to redemption.” The Court opined that the “right of redemption was not a
vested right.” Bemitsky, 112 A.2d at 123. It further observed that
the “Hight of redemption did not exist at common law [but] was
created by statute.” Id.

App. 25
to judge the wisdom, fairness, or logic of legislative
choices.” Shoul v. Commonwealth, Dep’t of Transp. Bureau of Driver Licensing, 173 A.3d 669, 677 (Pa. 2017)
(quoting Heller v. Doe, 509 U.S. 312, 319 (1993)). Instead, the rational basis test affords substantial deference to legislative policy making. The review includes
two steps: “First we must determine whether the challenged statute seeks to promote any legitimate state
interest or public value. If so, we must next determine
whether the classiﬁcation adopted in the legislation is
reasonably related to accomplishing that articulated
state interest or interests.” Curtis, 666 A.2d at 269.
Under rational basis review, the relationship between the classiﬁcation and the legitimate state interest need not be set forth expressly by the Legislature.
Shoul, 173 A.3d at 677 (quoting Heller, 509 U.S. at 32021). Moreover, courts have recognized that legislative
classiﬁcations are enacted to address complex issues
that may not have clear cut solutions. Accordingly,
courts have opined that “[a] classiﬁcation does not fail
rational-basis review because it is not made with
mathematical nicety or because in practice it results
in some inequality.” Id. at 321. Indeed, given the complexity of taxation policy, “legislatures have especially
broad latitude in creating classiﬁcations and distinctions in tax statutes.” Armour v. City of Indianapolis,
566 U.S. 673, 680 (2012).
Applying these precepts to the question before the
Court, we ﬁrst consider whether the Legislature had a
legitimate interest in enacting the RETSL’s prohibition against redemption. As noted above, we recognize

App. 26
that tax collection statutes serve the legitimate and,
indeed, critical purpose of funding government by
providing “prompt and certain availability” of assessed
taxes. Cedarbrook Realty, Inc., 399 A.2d at 377 (quoting
Bull v. United States, 295 U.S. 247, 259-60 (1935) (observing that “taxes are the life-blood of government,
and their prompt and certain availability an imperious
need”)); Bernitsky, 112 A.2d at 122 (recognizing that
“[s]tates and cities cannot exist without taxation”). In
regard to the RETSL speciﬁcally, this Court has opined
that the purpose of the RETSL is “to expedite the collection of delinquent real estate taxes, to retain the
productivity of the real estate, and to maintain economic value.” Bernitsky, 112 A.2d at 122. We have little
hesitation in concluding that these are legitimate state
interests.
We next consider whether the legislative decision
to include a redemption remedy in the MCTLA but exclude it from the RETSL is rationally related to the legitimate government purpose of expediting the
collection of delinquent real estate taxes. We agree
with the courts below and Saratoga that the lack of a
redemption provision in the RETSL promotes the legislative interest in facilitating the collection of delinquent taxes by ensuring certainty and ﬁnality for tax
sales, which, in turn, likely encourages higher bids
based on the greater security provided to the purchaser.
We additionally reject the implicit suggestion that
the MCTLA provides greater protection to delinquent taxpayers than the RETSL. Rather than looking

App. 27
myopically at the inclusion or exclusion of a redemption remedy, a broader consideration shows that both
statutes offer protections to the delinquent taxpayer,
with the RETSL utilizing greater pre-sale protections,
whereas the MCTLA focuses on post-sale remedies.
Most signiﬁcantly, while the MCTLA allows delinquent taxpayers nine months to pay their taxes to regain ownership of their properties, the RETSL grants
delinquent taxpayers twelve months to pay their taxes
to prevent the loss of ownership, so long as they pay
twenty-ﬁve percent of the taxes prior to the date of
sale. Compare 53 P.S. § 7293 (MCTLA redemption provision) with 72 P.S. § 5860.603 (RETSL removal from
sale provision).
These provisions contain trade-offs for all stakeholders. For the delinquent taxpayer, one system provides twelve rather than nine months from the
scheduled sale to satisfy the delinquent taxes, but requires a quarter of the total to be paid prior to the
scheduled sale. The purchaser takes on greater risk in
buying a property under the MCTLA, given the potential post-sale redemption, but likely pays a lower price
to compensate for the higher risk. The taxing district
under the RETSL must wait a year to determine if the
taxpayer will meet its obligation to repay the full
amount of delinquent taxes, but is provided twentyfive percent in advance and likely receives higher
bids for those properties which go to sale, due to the
lower risk given the prohibition on redemption in the
RETSL.

App. 28
Moreover, various reasons have been proposed
for why one system is more advantageous for rural
or urban counties in maximizing the collection of delinquent taxes, which all agree is a legitimate state
interest. The rationality of these explanations are not
undermined, as suggested by the Fouses and the dissent in the Commonwealth Court, by the statutory provision allowing tax bureaus in the less populated
counties to opt into the MCTLA. That an individual
county deems one of the systems more advantageous
to that county’s specific situation does not undermine the legislative determination that, generally, the
RETSL system is better suited for more rural counties.
We again emphasize that “[t]he time, the mode,
and the measure of taxation, are committed altogether
and exclusively to the legislative discretion.” Bernitsky,
112 A.2d at 122 (quoting In re Gault, 33 Pa. at 100). We
conclude that the dichotomy between those landholders subject to the RETSL rather than the MCTLA does
not violate equal protection, under either the federal
or state constitution, because the choice is rationally
related to the legislative determination of which system will maximize the collection of delinquent taxes
for different types of counties. See Pa. Const. Art. Ill,
§ 20 (expressly granting the Legislature the “power to
classify counties . . . according to population . . . ”).
As we conclude that the Fouses failed to demonstrate that the RETSL’s prohibition against post-sale
redemption clearly, plainly, and palpably violates the
equal protection provisions of the United States or Pennsylvania Constitutions, we afﬁrm the Commonwealth

App. 29
Court’s order approving the trial court’s denial of the
Fouses’ Petition to Redeem.
Chief Justice Saylor and Justices Todd, Donohue,
Dougherty, Wecht and Mundy join the opinion.

App. 30
204 A.3d 1028 (Pa.Cmwlth. 2019)
Fred Lohr and Jolene K. FOUSE, Appellants
v.
SARATOGA PARTNERS, L.P. and
Huntingdon County Tax Claim Bureau
No. 128 C.D. 2018
Commonwealth Court of Pennsylvania
March 7, 2019
Argued December 11, 2018
Appealed from No. CP-31-CV-1701-2016, Common
Pleas Court of the County of Huntingdon, Kurtz, Senior Judge.
Gregory A. Jackson, Huntingdon, for appellants.
Justin K. Houser, Lock Haven, for appellee Saratoga Partners, L.P.
BEFORE: HONORABLE ROBERT SIMPSON,
Judge, HONORABLE PATRICIA A. McCULLOUGH,
Judge, HONORABLE CHRISTINE FIZZANO CANNON, Judge
OPINION
FIZZANO CANNON, JUDGE
Fred Lohr and Jolene K. Fouse (together, the
Fouses)[1] appeal the October 23, 2017 order of the
1

Saratoga Partners, L.P. (Bidder) notes that “[a]lthough [the
Fouses] are consistently captioned as ‘Fred Lohr & Jolene K.

App. 31
Court of Common Pleas of Huntingdon County (trial
court) denying the Fouses’ petition to redeem property
sold at an upset tax sale (Petition to Redeem) and holding that the Pennsylvania Real Estate Tax Sale Law’s[2]
(RETSL) lack of a post-tax-sale right of redemption
does not violate either the Equal Protection Clause of
the United States Constitution or Article III of the
Pennsylvania Constitution. Upon review, we afﬁrm.
The Fouses are record owners[3] of two parcels of
real property (the Property) located in Lincoln Township within Huntingdon County, a sixth class Pennsylvania county.[4] Petition to Redeem at 2; Trial Court
Memorandum, 1/5/18 at 2. On or about September 26,
2016, the Huntingdon County Tax Claim Bureau (Tax
Claim Bureau) conducted an upset tax sale of the Property pursuant to RETSL. Petition to Redeem at 2. Saratoga Partners, L.P. (Bidder) was the highest bidder
Fouse’ throughout this appeal, it is [Bidder’s] understanding that
their names are Fred Lohr Fouse and Jolene K. Fouse.” Bidder’s
Brief at 1 n.1 (emphasis in original). Further, we note that appellants identiﬁed themselves as “Fred Lohr Fouse and Jolene K.
Fouse” before the trial court in their Brief in Support of their Petition to Redeem. See Petition to Redeem at 1.
2
Act of July 7, 1947, P.L. 1368, as amended, 72 P.S.
§§ 5860.101-5860.803.
3
As of December 1, 2016, the Fouses averred that “Wo date,
the sale conducted by the Huntingdon County Tax Claim Bureau
has not been conﬁrmed and Saratoga Partners has not been issued a deed for the Property.” Petition to Redeem at 2.
4
See AOPC: County Classes, available at http://www.pacourts.
us/news-and-statistics/research-and-statistics/dashboard-table-ofcontents/resources/WebHelp/General_Information/County_Class.htm
(last visited Jan. 9, 2019).

App. 32
at the sale and paid the Tax Claim Bureau a sum of
$ 27,795.45 for the Property. Id. Despite the Property
being sold pursuant to RETSL, on December 1, 2016,
the Fouses ﬁled their Petition to Redeem with the trial
court, attempting to avail themselves of the post-taxsale right of redemption contained in the Municipal
Claims and Tax Liens Act (MCTLA).[5] Petition to Redeem at 1; Bidder’s Brief at 1. In their Petition to Redeem, the Fouses claimed that, as “owner[s] of the
Property,” they “have the right to redeem [it] pursuant
to [53 P.S. § 7293], and [to] extinguish any right, claim,
or title held by Saratoga Partners upon payment of any
actual costs incurred in connection to the sale.” Petition to Redeem at 2. The Fouses also asked the trial
court to “issue a [r]ule upon Respondent, Saratoga
Partners to show cause why the relief requested . . .
should not be granted and to issue an [o]rder to . . . the
Tax Claim Bureau, to withhold any deed it intends to
issue to Saratoga Partners until such time as the [r]ule
[is] satisﬁed.” Id. at 3. The Fouses ﬁled a Brief in
5

Act of May 16, 1923, P.L. 207, as amended, 53 P.S. §§ 71017505. Section 32 of the MCTLA provides as follows:
The owner of any property sold under a tax or municipal claim, or his assignees, or any party whose lien or
estate has been discharged thereby, may, except as provided in subsection (c) of this section, redeem the same
at any time within nine months from the date of the
acknowledgment of the sheriff ’s deed therefor, upon
payment of the amount bid at such sale[.]
53 P.S. § 7293(a). However, RETSL, which governed the upset tax
sale, provides that “[t]here shall be no redemption of any property
after the actual sale thereof.” Section 501(c) of the RETSL, 72 P.S.
§ 5860.501(c).

App. 33
Support of their Petition to Redeem, arguing that
RETSL’s lack of a post-tax-sale right of redemption
impinges on due process and equal protection rights
under the United States Constitution and the Pennsylvania Constitution, in addition to violating the Uniformity Clause of the Pennsylvania Constitution. Brief
in Support at 5. On October 23, 2017, the trial court
issued an order denying the Fouses’ Petition to Redeem, due to its ﬁnding that RETSL’s lack of a posttax-sale right of redemption does not violate either the
Equal Protection Clause of the United States Constitution or Article Ill of the Pennsylvania Constitution.[6]
Trial Court Order, 10/23/17.
The Fouses timely appealed[7] and ﬁled a Statement of Errors Complained of on Appeal, alleging that
“[t]he failure of [RETSL] to provide taxpayers with a
redemption period violates both the Equal Protection
Clause of the United State Constitution and Article III
of the Constitution of the Commonwealth of Pennsylvania.” Huntingdon County Prothonotary Docket

6

The Fouses did not provide a verbatim transcript of the proceedings giving rise to the appeal and claim one does not exist.
Bidder contends that “some or all of [the Fouses’] appellate arguments are arguably waived.” Bidder’s Brief at 2 n.3 (citing Smith
v. Smith, 431 Pa.Super. 588, 637 A.2d 622, 623-24 (1993) (where
appellant’s failure to secure certiﬁed transcript of proceedings
precludes meaningful appellate review of issue, issue is deemed
waived)). However, this Court does not ﬁnd that a verbatim transcript is necessary in the case sub judice for meaningful appellate
review.
7
The Fouses initially appealed to the Superior Court, which
transferred the matter to this Court.

App. 34
Entries at 3; Statement of Errors Complained of on
Appeal, 12/18/17.
On January 5, 2018, the trial court issued a memorandum stating the reasons for its October 23, 2017
order. Trial Court Memorandum, 1/5/18 at 1. The trial
court held that the Fouses’ equal protection challenge
warranted rational basis review. Id. at 5 (citing Curtis
v. Kline, 542 Pa. 249, 666 A.2d 265, 267-68 (1995)). The
trial court also found that “the dominant purposes of
[RETSL] [are] to provide speedier and more efﬁcient
procedures for enforcing tax liens and to improve the
quality of titles obtained at a tax sale.” Id. (quoting
Povlow v. Brown, 12 Pa.Cmwlth. 303, 315 A.2d 375, 377
(1974)). The trial court noted its opinion that the desired post-tax-sale “equity of redemption . . . would . . .
have the effect of making tax titles less attractive than
they now are[,] . . . thus increasing the chance that the
amounts bid at tax sales will be inadequate.” Id. at 6
(quoting Povlow, 315 A.2d at 377 n.4). The trial court
further opined that “[a] speedier, more efﬁcient procedure that enhance[s] the quality of titles proffered at
sale certainly promotes the [S]tate’s interest in tax collection.” Id. The trial court noted that Article Ill, Section 20 of the Pennsylvania Constitution “speciﬁcally
permits classiﬁcation by population.” Id. Thus, the trial
court held that the Fouses failed to establish that
RETSL’s lack of a post-tax-sale right of redemption
contravenes the right to equal protection under the
law. Id. at 6-7 (citing Pa. Liquor Control Bd. v. The Spa
Athletic Club, 506 Pa. 364, 485 A.2d 732, 735 (1984)).

App. 35
Before this Court,[8] the Fouses argue that the trial
court should have applied strict judicial scrutiny, rather than rational basis review, to determine whether
RETSL’s lack of a post-tax-sale redemption provision
violates the Fouses’ rights to due process and equal
protection under the law.[9] Fouses’ Brief at 7-8. The
Fouses further contend that RETSL’s lack of such a
provision does not withstand even rational basis review. Id. at 6 & 11.
As a preliminary matter, we note that the Fouses
have waived their due process argument for failure to
raise it in their statement of errors complained of on
appeal. Pursuant to Pennsylvania Rule of Appellate
8

In tax sale cases, our review is limited to determining
whether the trial court abused its discretion, rendered a decision
with a lack of supporting evidence, or clearly erred as a matter of
law. Murphy v. Monroe Cty. Tax Claim Bureau, 784 A.2d 878, 880
n.2 (Pa.Cmwlth. 2001). The Tax Claim Bureau failed to ﬁle a brief
as ordered by this Court and, therefore, was precluded from participating on appeal. See Commonwealth Court Order, 9/17/18.
9
In their Rule 1925(b) statement, the Fouses speciﬁed that
they are pursuing an equal protection challenge under the United
States Constitution. However, before this Court, the Fouses appear to argue their equal protection claim under the Pennsylvania Constitution. This discrepancy is immaterial, as “[t]he equal
protection provisions of the Pennsylvania Constitution are analyzed under the same standards used by the United States Supreme Court when reviewing equal protection claims under the
Fourteenth Amendment.” Jackson v. Commonwealth, 143 A.3d
468, 476 n.12 (Pa.Cmwlth. 2016) (quoting Love v. Borough of
Stroudsburg, 528 Pa. 320, 597 A.2d 1137, 1139 (1991)); see also
Republican Party of Pa. v. Cortes, 218 F.Supp.3d 396, 417 (E.D.
Pa. 2016) (stating, “Pennsylvania’s equal protection and due process provisions are coextensive with the corresponding provisions
of the United States Constitution”).

App. 36
Procedure 1925(b)(4)(vii), “[i]ssues not included in the
[s]tatement [of errors complained of on appeal] and/or
not raised in accordance with the provisions of this
paragraph (b)(4) are waived.” Pa. R.A.P. 1925(b)(4)(vii);
see City of Philadelphia v. Lerner, 637 Pa. 605, 151 A.3d
1020, 1024 (2016) (reafﬁrming the “well-settled,
bright-line rule” that “issues not raised in a Rule
1925(b) statement will be deemed waived” and holding
that “[b]y failing to comply with Rule 1925(b), [the appellant] waived the issue that he . . . request[ed] [the]
Court to address”). Accordingly, we will not address the
Fouses’ due process argument.
With respect to the Fouses’ equal protection argument, we are mindful that “[a] statute duly enacted by
the General Assembly is presumed valid[.]” W. Mifﬂin
Area Sch. Dist. v. Zahorchak, 607 Pa. 153, 4 A.3d 1042,
1048 (2010). “The party seeking to overcome the presumption of validity must meet a formidable burden.”
Commonwealth v. Means, 565 Pa. 309, 773 A.2d 143,
147 (2001). “Legislation will not be invalidated unless
it clearly, palpably and plainly violates the constitution
and any doubts are to be resolved in favor of a ﬁnding
of constitutionality.” Appeal of McNelly, 122 Pa.Cmwlth.
601, 553 A.2d 472, 476-77 (1989) (citing Pa. Liquor
Control Bd., 485 A.2d at 732.
The Equal Protection Clause of the Fourteenth
Amendment to the United States Constitution provides,
in relevant part: “No State shall . . . deny to any person
within its jurisdiction the equal protection of the
laws.” U.S. CONST. amend. XIV, § 1. The corresponding

App. 37
portions of the Pennsylvania Constitution provide as
follows:
All men are born equally free and independent, and have certain inherent and indefeasible rights, among which are those of enjoying
and defending life and liberty, of acquiring,
possessing and protecting property and reputation, and of pursuing their own happiness.
PA. CONST. art. I, § 1.
Neither the Commonwealth nor any political subdivision thereof shall deny to any person the enjoyment of any civil right, nor discriminate against any
person in the exercise of any civil right. PA. CONST.
art. I, § 26. “In analyzing [an] equal protection challenge to [a statute], we must ﬁrst determine the appropriate level of judicial scrutiny to be applied.” Zauﬂik
v. Pennsbury Sch. Dist., 72 A.3d 773, 790 (Pa.Cmwlth.
2013), aff ’d, 629 Pa. 1, 104 A.3d 1096 (2014) (citing
Smith v. City of Philadelphia, 512 Pa. 129, 516 A.2d
306, 311 (1986)). “Strict scrutiny of a legislative classiﬁcation applies only when the classiﬁcation impermissibly interferes with the exercise of a fundamental
right or operates to the peculiar disadvantage of a suspect class.” Zauﬂik, 72 A.3d at 790 (quoting Mass. Bd.
of Retirement v. Murgia, 427 U.S. 307, 312, 96 S.Ct.
2562, 49 L.Ed.2d 520 (1976)) (internal quotation marks
omitted). To survive strict scrutiny, a classiﬁcation
“must be justiﬁed by a compelling government interest
and . . . must be strictly construed.” Id. at 790-91 (citing
Smith, 516 A.2d at 311). “If the classiﬁcation involves
an important government interest,” then intermediate

App. 38
judicial scrutiny is applied to determine whether the
classiﬁcation “serve[s] important governmental objectives” and is “substantially related to the achievement
of those objectives.” Id. (quoting Craig v. Boren, 429
U.S. 190, 197, 97 S.Ct. 451, 50 L.Ed.2d 397 (1976))
(brackets omitted). “Finally, if the classiﬁcation does
not involve either fundamental rights, suspect classes,
or sensitive or important government interests, it will
be upheld if there is any rational basis for the classiﬁcation.” Id. (quoting Smith, 516 A.2d at 311) (internal
quotation marks omitted).
The Fouses argue that the trial court erred in applying the rational basis level of scrutiny to determine
whether RETSL’s lack of a post-tax-sale redemption
right violates their equal protection rights. Fouses’
Brief at 7. The Fouses contend that RETSL’s failure to
provide residents of third[10] to eighth class counties
with the opportunity to redeem property following a
tax sale “infringes upon a ‘fundamental right,’ ” such
that “a reviewing court must apply the strict scrutiny
test.” Fouses’ Brief at 8. The Fouses maintain that
“[t]he Pennsylvania Constitution classiﬁes the acquisition and possession of property as a fundamental
right” implicating a strict scrutiny standard and assert
that “[t]he classiﬁcation of citizens based upon the
10

The Fouses misstate the applicability of RETSL, which applies to counties of the second A to eighth class. See Section 102
of RETSL, 72 P.S. § 5860.102 (deﬁning “County” as “a county of
the second A, third, fourth, ﬁfth, sixth, seventh or eighth class,
including counties of these classes which have adopted or may
adopt home rule charters under . . . the ‘Home Rule Charter and
Optional Plans Law[, 53 Pa.C.S. §§ 2901-2984]’ ”).

App. 39
population of the municipality in which they live does
not serve a compelling governmental interest.” Id. at 6.
Specifically, the Fouses, citing R. v. Department of
Public Welfare, 535 Pa. 440, 636 A.2d 142, 149 (1994),
reason that “reputational rights, which are mentioned in the same part of Article I, Section 1 . . . as
property rights, are currently deemed ‘fundamental’
by our [S]tate’s Supreme Court” and, therefore, property rights share equal stature. Fouses’ Brief at 9. Further, the Fouses maintain that “if the right to be secure
in one’s home is a sacrosanct, inviolate, and fundamental right, so, then, is the right to acquire, possess, and
protect the property on which the home is situated.”
Id. The Fouses also claim that the lack of a post-taxsale right of redemption under RETSL “does nothing
to advance the government’s compelling interest in collecting taxes, and . . . is certainly not narrowly tailored
to that end,” such that “Pennsylvania’s tax sale scheme
cannot withstand strict scrutiny review.” Id. at 11.
On the other hand, Bidder argues that the trial
court’s order should be afﬁrmed because RETSL’s lack
of a post-tax-sale “redemption provision does not violate . . . the Equal Protection Clause of the Fourteenth
Amendment of the United States Constitution [or] the
[c]orresponding [p]rovisions of the Pennsylvania Constitution[.]” Bidder’s Brief at 4. Bidder asserts that the
Fouses have mischaracterized the right at issue, but
further contends that even if the Fouses’ characterization were correct, “precedent unequivocally holds that
one’s right to hold and enjoy property is not a fundamental right, the derogation of which would invite

App. 40
strict scrutiny.” Id. (emphasis in original) (citing McSwain v. Commonwealth, 103 Pa.Cmwlth. 326, 520
A.2d 527, 530 (1987)). Bidder thus claims that the
Fouses fail to meet their “heavy burden to overcome
[RETSL’s] presumption of constitutionality.” Id. at 4
(internal citations omitted) (quoting Appeal of McNelly,
553 A.2d at 476).
In McSwain, this Court held that “the right to
freely hold and dispose of one’s property” is not a fundamental right. McSwain, 520 A.2d at 530. We noted
that “[w]hile someone deprived of property is entitled
to due process, due process is not synonymous with a
fundamental right.” Id. at 530. We concluded that the
rational basis test is appropriate when addressing the
right to hold and dispose of one’s property. See id. at
531. Admittedly, McSwain does not concern the right
of redemption, but rather involves an equal protection
challenge to a city ordinance requiring all vacant
dwellings to ﬁrst pass housing code inspection prior to
their rental, lease or occupation. Id. at 528. However,
whether a particular statute accords a right of redemption directly implicates a property owner’s ability to
hold and use the property. Because the right to “freely
hold and dispose of property subsumes the Fouses’ asserted right to post-tax-sale redemption, we ﬁnd that
the Fouses’ equal protection challenge warrants rational basis review.[11]
11

Although not addressed by the Fouses, we further note
that the constitutional challenge sub judice warrants rational basis review because RETSL’s distinction on the basis of county
class, which is based on population, implicates neither a suspect

App. 41
Nonetheless, the Fouses argue that Pennsylvania’s tax sale scheme “does not survive even rational
basis scrutiny.” Fouses’ Brief at 11. The Fouses contend
that “to survive rational basis scrutiny under Pennsylvania law, the disallowance of redemption under
[RETSL], as opposed to [MCTLA] which allows redemption, must bear a substantial relation to the object of Pennsylvania’s tax sale laws: the collection of
delinquent taxes.” Id. at 12. The Fouses assert that
“[t]he infringement on the protected property rights of
citizens living in [second A] through [e]ighth class
counties does not bear any relationship to the ends of
collecting delinquent taxes, let alone a substantial
one[.]” Id. at 13. Bidder counters that “[t]he lack of a
redemption provision in [RETSL] bears a ‘fair and substantial’ relationship to the legislative interest as expressed in the statute.” Bidder’s Brief at 11.
In applying the rational basis test, we must ﬁrst
“determine whether the challenged statute seeks to
promote any legitimate state interest or public value.
If so, we must next determine whether the classiﬁcation adopted in the legislation is reasonably related to
accomplishing that articulated state interest or
class nor a sensitive classiﬁcation. See Wings Field Pres. Assocs.,
L.P. v. Dep’t of Transp., 776 A.2d 311, 318-19 (Pa.Cmwlth. 2001)
(evaluating an equal protection challenge to a state statute that
only applied to “count[ies] of the second class A having a population in excess of 675,000 persons” under rational basis review);
see also Small v. Horn, 554 Pa. 600, 722 A.2d 664, 672 nn.14 & 15
(1998) (citations omitted) (suspect classes include race and national
origin, and quasi-suspect classes, also referred to as “sensitive
classiﬁcations” in Pennsylvania, include gender and legitimacy).

App. 42
interests.” Curtis, 666 A.2d at 269. “Under the [E]qual
[P]rotection [Clause][,] guarantees, distinctions and
classiﬁcations in legislation are not prohibited, but
must only bear some relationship to the ends to be
achieved by the law.” McSwain, 520 A.2d at 530 (citing
Stottlemyer v. Stottlemyer, 458 Pa. 503, 329 A.2d 892
(1974)). “[T]he Fourteenth Amendment permits the
States a wide scope of discretion in enacting laws
which affect some groups of citizens differently than
others.” McGowan v. Maryland, 366 U.S. 420, 425, 81
S.Ct. 1101, 6 L.Ed.2d 393 (1961). Further, equal protection principles “relate[ ] to equality between persons
as such, rather than between areas and . . . territorial
uniformity is not a constitutional prerequisite.” Id. at
427, 81 S.Ct. 1101. Thus, “[t]he prohibition against
treating people differently under the law does not preclude the Commonwealth from resorting to legislative
classiﬁcations, provided that those classiﬁcations are
reasonable rather than arbitrary” and “rest upon some
ground of difference which justiﬁes the classiﬁcation
and has a fair and substantial relationship to the object of the legislation.” Curtis, 666 A.2d at 26768 (citations omitted). “A classiﬁcation, though discriminatory,
is not arbitrary or in violation of the equal protection
clause if any state of facts reasonably can be conceived
to sustain that classiﬁcation.” Curtis, 666 A.2d at 268
(citations omitted). “‘Fair and substantial’ means that
the classiﬁcation must be reasonable and not arbitrary,
and the classiﬁcation must rest upon some ground of
difference which has a fair and substantial relation
to the object of the legislation, so that all persons
similarly situated shall be treated alike.” Appeal of

App. 43
McNelly, 553 A.2d at 476 (quoting Kroger Co. v. O’Hara
Twp., 481 Pa. 101, 392 A.2d 266 (1978)). Thus, “a legislative classiﬁcation need bear only a rational relationship to the object sought to be achieved by the law, and
will be overturned only if it rests on grounds wholly
irrelevant to the achievement of the state’s purpose.”
McSwain, 520 A.2d at 530 (citing McGowan, 366 U.S.
at 425, 81 S.Ct. 1101).
When applying “the rational basis test . . . [to an]
equal protection . . . challenge[ ] . . . , a court must uphold a statute as rational if it can conceive of any plausible reason for the statute.” Peake v. Commonwealth,
132 A.3d 506, 519 n.15 (Pa.Cmwlth. 2015) (internal citation and quotation marks omitted). Thus, when considering an equal protection challenge, “the reviewing
court is free to hypothesize reasons the legislature
might have had for the classiﬁcation[,]” and “[i]f the
court determines that the classiﬁcations are genuine,
it cannot declare the classiﬁcation void even if it might
question the soundness or wisdom of the distinction.”
Curtis, 666 A.2d at 268. As we have held previously,
[t]he problems of government are practical
ones and may justify, if they do not require,
rough accommodations[ ]—illogical, it may be,
and unscientiﬁc. . . . We do not wish to inhibit
state experimental classiﬁcations in . . . practical and troublesome area[s], but inquire only
whether the challenged distinction rationally
furthers some legitimate, articulated state
purpose.

App. 44
Strong v. County of Erie, 122 Pa.Cmwlth. 461, 552 A.2d
350, 353-54 (1989) (quoting Metropolis Theater Co. v.
City of Chicago, 228 U.S. 61, 69-70, 33 S.Ct. 441, 57
L.Ed. 730 (1913)). Moreover,
[i]t is not necessary that the rational basis for
a classiﬁcation be set forth in the statute or in
the legislative history. Nor is it necessarily incumbent upon the government agency to advance the reasons for the act in defending the
classiﬁcation. The burden must remain upon
the person challenging the constitutionality of
the legislation to demonstrate that it does not
have a rational basis. Should the reviewing
court detect such a basis, from whatever
source, the legislation must be upheld.
Pa. Liquor Control Bd., 485 A.2d at 735.
The question of whether RETSL’s lack of a posttax-sale redemption provision contravenes equal protection guarantees has not yet been squarely addressed by
a Pennsylvania court.[12] Nevertheless, we hold that
RETSL’s lack of a post-tax-sale right of redemption
provision does not violate the right to equal protection
12

This question has reached this Court previously but was
not decided for different reasons. See Liggett v. Tax Claim Bureau
Fayette Cty. (Pa.Cmwlth., No. 2099 C.D. 2012, 2015 WL 5161319,
ﬁled Feb. 17, 2015) (holding appellants waived their equal protection claim); Lewicki v. Washington Cty. (Pa.Cmwlth., No. 2371
C.D. 2013, 2014 WL 10316922, ﬁled Dec. 4, 2014) (ﬁnding appellants waived their equal protection challenge); Battisti v. Tax
Claim Bureau of Beaver Cty., 76 A.3d 111, 114 (Pa.Cmwlth. 2013)
(declining to reach the equal protection claim and remanding the
matter to the trial court for an evidentiary hearing).

App. 45
under the law. The Supreme Court of Pennsylvania has
declared that “the purpose of tax sales [under RETSL]
is not to strip the taxpayer of his property but to
[e]nsure the collection of taxes.” Tracy v. Chester Cty.,
Tax Claim Bureau, 507 Pa. 288, 489 A.2d 1334, 1339
(1985) (quoting Hess v. Westerwick, 366 Pa. 90, 76 A.2d
745, 748 (1950)). Further, this Court has held that
“[t]he dominant purpose of [RETSL] is to provide
speedier and more efﬁcient procedures for enforcing
tax liens and to improve the quality of title of the property sold at a tax sale.” Pacella v. Washington Cty. Tax
Claim Bureau, 10 A.3d 422, 428 (Pa.Cmwlth. 2010).
Thus, it is established that RETSL promotes a legitimate government interest. Further, we ﬁnd the General Assembly’s classiﬁcation—withholding the right
of post-tax-sale redemption from property owners in
second A through eighth class counties under RETSL
while according such a right to property owners in ﬁrst
and second class counties under the MCTLA—bears a
rational relation to the governmental objective. As we
are “free to hypothesize reasons the legislature might
have had for the classiﬁcation,” Curtis, 666 A.2d at 268,
we posit that Pennsylvania’s ﬁrst and second class
counties[13] have larger pools of prospective buyers at
tax sales. These larger pools of prospective buyers
make it more likely that a property will be sold at a tax
sale. Under these circumstances, the need for owner
13

Philadelphia County and Allegheny County, respectively.
See AOPC: County Classes, available at http://www.pacourts.usinewsand-statistics/research-and-statistics/dashboard-table-of-contents/
resources/WebHelp/General_Information/County_Class.htm (last
visited Jan. 9, 2019).

App. 46
protection is greater, and that need is met by the equity
of redemption in the more populous counties. Further,
as these counties have a higher population and, therefore, a larger taxable base from which to derive revenue, the General Assembly could have reasoned that
these counties can afford a less efﬁcient process for collecting delinquent taxes by providing a post-tax-sale
right of redemption.
As we are able to conceive of plausible reasons for
the statute, and the legislative classiﬁcation does not
rest on grounds wholly irrelevant to the achievement
of the state’s purpose, we ﬁnd that RETSL’s lack of a
post-tax-sale right of redemption provision satisﬁes rational basis review. See Strong, 552 A.2d at 353 (emphasis in original) (providing, “it [i]s not for the court
to determine whether in fact the [challenged statute]
would promote legitimate governmental purposes but
whether the ‘[state] [legislature could rationally have
decided’ it would”) (quoting Minnesota v. Clover Leaf
Creamery Co., 449 U.S. 456, 466, 101 S.Ct. 715, 66
L.Ed.2d 659 (1981))[14] Moreover, the “formidable”
14

See, e.g., Leonard v. Thornburgh, 507 Pa. 317, 489 A.2d
1349, 1352-53 (Pa. 1985) (holding that a statute providing for a
lower wage tax cap on non-residents of the City of Philadelphia
(City) than on residents of the City did not impinge on equal protection rights and was based on a “legitimate distinction,” because
“non-resident wage earners utilize services provided by the City
. . . to a lesser extent than do residents,” some services “are offered
only to residents” and “residents of the [C]ity have recourse
through their own elected representatives . . . in the event that
they believe their tax rates are excessive”); Appeal of McNelly, 553
A.2d at 476 (holding that a law limiting a school employee residency requirement to school districts of the ﬁrst class and ﬁrst

App. 47
burden of persuasion rests on the Fouses alone, see
Means, 773 A.2d at 147, and they have failed to present
any evidence or any reason under the law establishing
why RETSL does not pass constitutional muster. See
Appeal of McNelly, 553 A.2d at 476-77 (ﬁnding appellants “clearly failed to meet [their] burden” to establish
that a statute violated their right to equal protection
under the law, when “[t]hey . . . offered no evidence
whatsoever to support their claim that there were no
relevant distinctions or similarities between themselves and the Philadelphia and Pittsburgh school districts”).
Accordingly, for the foregoing reasons, we afﬁrm
the trial court’s decision to deny the Fouses’ Petition to
Redeem and its conclusion that RETSL’s lack of a posttax-sale right of redemption provision does not violate
the right to equal protection under the law.

class A was “rationally related to legitimate governmental interests,” as the school districts could “be distinguished on the basis
of population, high unemployment, lack of adequate tax base,
enhancement of the quality of employee performance and the general economic ﬂow from local expenditures of employees’ salaries”); Strong, 552 A.2d at 351-52 (holding that an ordinance
setting the compensation for municipal tax collectors at a percentage of the assessed value of municipal property for which they
would collect taxes but capping compensation for the tax collector
of a particular township was rationally related to the legitimate
governmental objectives of “[r]educing county costs and achieving
uniformity among municipal tax collectors”).

App. 48
ORDER
AND NOW, this 7th day of March, 2019, the October 23, 2017 order of the Court of Common Pleas of
Huntingdon County is AFFIRMED.

DISSENTING OPINION
McCULLOUGH, JUDGE
Fred and Jolene Fouse had their property sold at
an upset tax sale due to delinquent taxes that they
owed. If the property was located in Philadelphia
County or Allegheny County, counties that proceed
solely and exclusively under the Municipal Claims and
Tax Liens Act (MCTLA),[1] the Fouses would have possessed a right to redeem their property “within nine
months from the date of the acknowledgment of the
sheriff ’s deed . . . upon payment of the amount bid
at such sale[.]” Section 32(a) of the MCTLA, 53 P.S.
§ 7293(a).[2] However, the Fouses’ place of residence
and the property is sited in Huntingdon County, a sixth
class county, and the Real Estate Tax Sale Law
1

Act of May 16, 1923, P.L. 207, as amended, 53 P.S. §§ 7101-

7505.
2

There is an exception for the City of Pittsburgh, where tax
sales are governed by the Second Class City Treasurer’s Sale and
Collection Act, Act of October 11, 1984, P.L. 876, as amended, 53
P.S. §§ 27101-27605 (Treasurer’s Act). Under section 304 of the
Treasurer’s Act, the owner of the property “may redeem the property by payment of the full amount of the claims for which the
property was sold . . . [w]ithin 90 days after the date of the treasurers sale.” 53 P.S. § 27304.

App. 49
(RETSL)[3] applies to this county. See sections 102
and 201 of the RETSL, 72 P.S. §§ 5860.102 (defining
“county” in pertinent part as “a county of the second A,
third, fourth, ﬁfth, sixth, seventh or eighth class[.]”),
201 (“[A] Tax Claim Bureau is hereby created in each
county in the office of the county commissioners.”).
Unlike the MCTLA, under the RETSL, “[t]here shall
be no redemption of any property after the actual
sale thereof.” Section 501(c) of the RETSL, 72 P.S.
§ 5860.501(c).
The Fouses contend that the inclusion of a postsale right to redemption in the MCTLA, and the exclusion of such a right from the RETSL, violate principles
of equal protection. “[I]n evaluating this question, we
employ the rational basis test, under which a statutory
classiﬁcation will be upheld so long as it bears a reasonable relationship to accomplishing a legitimate
state purpose.” Commonwealth v. Duda, 592 Pa. 164,
923 A.2d 1138, 1151 (2007).
Our case law indicates that there are no signiﬁcant substantive or procedural differences between the
RETSL and the MCTLA, except for the automatic right
to redemption in the MCTLA. In City of Allentown v.
Kauth, 874 A.2d 164 (Pa.Cmwlth. 2005), this Court explained that “[t]he RETSL’s mechanisms for upset and
judicial sales are virtually identical to those in the
MCTLA.” Id. at 166. We observed that “[t]he MCTLA
and RETSL . . . permit, through strikingly similar and
3

Act of July 7, 1947, P.L. 1368, as amended, 72 P.S.
§§ 5860.101-5860.803.

App. 50
parallel mechanisms, a taxing authority to expose a
delinquent property for an upset sale and, in the absence of receiving the upset price by which to satisfy
the delinquent taxes and claims, a ‘free and clear’ judicial sale.” Kauth, 874 A.2d at 168-69. Indeed, “the two
statutes are very similar and operate concurrently
with one another” and are essentially one and the
same; although they are technically two different statutes, both contain “procedures for the resolution of the
same disputes[.]” Kauth, 874 A.2d at 169. Additionally,
“Whether the judicial sale is effected under the MCTLA
or the RETSL the intent of the legislature is the same:
to return real property to productive use under new
ownership.” Kauth, 874 A.2d at 169 (emphasis added).
Against this background, the Majority discerns a
rational basis for the General Assembly’s differential
classiﬁcation of the RETSL and MCTLA by focusing
on the fact that Pennsylvania’s ﬁrst and second class
counties, Philadelphia County and Allegheny County,
have greater populations than the other counties.
From this, the Majority posits that Philadelphia
County and Allegheny County “have larger pools of
prospective buyers at tax sales,” which “make it more
likely that a property will be sold at a tax sale.” Maj.
op. at 1038. Therefore, according to the Majority, “the
need for owner protection is greater” and this “need
is met” with the right of redemption found in the
MCTLA. Maj. op. at 1038. The Majority also asserts
that, by virtue of having comparatively higher population ﬁgures, Philadelphia County and Allegheny
County contain “a larger taxable base from which to

App. 51
derive revenue” and, as such, “the General Assembly
could have reasoned that these counties can afford a
less efﬁcient process for collecting delinquent taxes by
providing a post-tax-sale right of redemption.” Id.
However, the justiﬁcations conceived by the Majority are refuted and rendered implausible in light of
section 39.5 of the MCTLA,[4] which provides that
“[t]he tax claim bureaus of the several counties may
adopt and use the procedures set forth in this act in
addition to the procedures set forth in the [RETSL].”
53 P.S. § 7193.5. Since the counties that are covered
under the RETSL, including the least populous eighth
class county, can elect to use the additional and alternative procedure of the MCTLA, along with its right of
redemption, there is no apparent basis relating specifically to differences in population that would rationalize excluding the right of redemption from the RETSL.
See Shapiro v. Thompson, 394 U.S. 618, 639, 89 S.Ct.
1322, 22 L.Ed.2d 600 (1969) (rejecting proffered justiﬁcation for a statute where the justiﬁcation was “completely refuted by the legislative history”);[5] see also
United States v. Carolene Products Co., 304 U.S. 144,
152, 58 S.Ct. 778, 82 L.Ed. 1234 (1938) (stating that
“the existence of facts supporting the legislative judgment is to be presumed . . . unless in the light of the
facts made known or generally assumed it is of such
a character as to preclude the assumption”). Hence,
4

Added by section 8 of the Act of August 14, 2003, P.L. 83.
Shapiro was overruled in part on other grounds by Edelman v. Jordan, 415 U.S. 651, 94 S.Ct. 1347, 39 L.Ed.2d 662
(1974).
5

App. 52
contrary to the stance of the Majority, the right of
redemption seems to be wholly disconnected from
the concept of population, some other characteristic
unique to Philadelphia County or Allegheny County, or
the ability or goal of collecting taxes in general.[6]
In this vein, I view the right of redemption as a
personal, individual right that provides a homeowner
with an extra or final chance to reclaim property following the completion of an upset tax sale or judicial
sale. While the General Assembly unconditionally
granted homeowners with property in Philadelphia
County and Allegheny County such a right, it did not
provide or expressly bestow this right upon any other
homeowner of the other counties in the Commonwealth who fall within the ambit of the RETSL. It
6

This point is buttressed by the fact that, under the Treasurers Act, residents in the City of Pittsburgh, the largest municipality in Allegheny County, can only redeem property within 90
days or three months after the date of the treasurer’s sale, 53 P.S.
§ 27304, while residents of the smaller townships and boroughs
of Allegheny County have a guaranteed right to redeem property
within nine months of acknowledgement of the sheriff ’s deed
—which occurs after the sale has been consummated—under
the MCTLA, 53 P.S. § 7293(a). See Brentwood Borough School
District v. HSBC Bank USA, 111 A.3d 807, 808-10 and n.2
(Pa.Cmwlth. 2015) (explaining that the Treasurer’s Act applies to
the City of Pittsburgh, and not to the Borough of Brentwood,
which is located in Allegheny County just outside the City of
Pittsburgh, and analyzing the right of redemption under the
MCTLA for a tax sale conducted in connection with property located in the Borough of Brentwood). If there were a positive correlation between population size and the right of redemption,
then, ostensibly, the residents of Pittsburgh would have at least
the same amount of time to redeem property as the surrounding
townships and boroughs that are located in Allegheny County.

App. 53
should be beyond dispute that, no matter where a
homeowner resides, that homeowner shares the same
interest in redemption as any other homeowner located anywhere else in the Commonwealth. In terms
of equal protection, the federal and state constitutions
“both reﬂect the principle that like persons in like circumstances must be treated similarly” and “a classiﬁcation will be struck down if it is based upon artiﬁcial
or irrelevant distinctions[.]” Harrisburg School District v. Zogby, 574 Pa. 121, 828 A.2d 1079, 1088-89
(2003).
Upon review, I am simply unable to decipher how
the exclusion of a right of redemption from the RETSL
bears a reasonable relationship to a legitimate state
purpose, or how the denial of this right promotes the
purpose of classiﬁcation based upon county size.
Through its operation, the MCTLA grants a privilege
and beneﬁt upon one class of individuals as a matter
of right and, apart from a mere preference for one
group over another, I cannot ascertain why the General
Assembly has not afforded the same right to the class
of individuals covered under and subjected to the
RETSL. Consequently, I would conclude that the
RETSL fails the rational basis test and would declare
that the statute, on its face, violates the rights of equal
protection under the United States and Pennsylvania
Constitutions. I, therefore, would enjoin enforcement
of the RETSL and enter an order requiring all the
counties in the Commonwealth to utilize the MCTLA
(which they are already authorized to do) as the sole

App. 54
procedure through which to conduct tax sales,[7]
thereby ensuring that all the homeowners in this Commonwealth are treated alike and are vested with the
right to redeem their property.[8]
Hence, I respectfully dissent.

7

This would be to the exclusion of the City of Pittsburgh,
which would continue to conduct tax sales under the Treasurer’s
Act.
8
See Commonwealth v. Butler, 458 Pa. 289, 328 A.2d 851,
860 (1974) (Pomeroy, J., concurring) (“Where a statute denies
equal protection by making an unconstitutional classiﬁcation, the
classiﬁcation can be abolished by making the statute operate either on everyone or on no one,” quoting Developments in the
Law—Equal Protection, 82 HARV. L. REV. 1065, 1136-37 (1969)).

App. 55
IN THE COURT OF COMMON PLEAS
OF HUNTINGDON COUNTY,
PENNSYLVANIA
CIVIL DIVISION
FRED LOHR and
JOLENE K. FOUSE,
Plaintiffs
vs.
SARATOGA PARTNERS, L.P.,
and HUNTINGDON COUNTY
TAX CLAIM BUREAU,
Defendants

:
:
:
:
: NO. 2016-1701
:
:
:
:

ORDER
AND NOW, this 23rd day of October, A.D., 2017,
after argument held October 10, 2017, it is Ordered
that the “Petition to Redeem Property Sold at Tax Sale”
ﬁled on behalf of Plaintiffs is denied since the Court is
satisﬁed that the Real Estate Tax Sale Law of 1947
does not violate either the Equal Protection Clause of
the United State Constitution or Article Ill of the Pennsylvania Constitution.
BY THE COURT:
/s/ Stewart Kurtz
S.J.

